Washington, D.C. 20530

January 19, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Ismael Lechuga v. United States of America,
S.Ct. No. 20-745
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 24, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on January 28, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0745
LECHUGA, ISMAEL
USA

JOSH BARRETT SCHAFFER
SCHAFFER LAW OFFICES
1021 MAIN STREET
SUITE 1440
HOUSTON, TX 77002
713-951-9555
JOSH@JOSHSCHAFFERLAW.COM

